                         Office of Inspector General, USDA
                            Investigation Developments

>> February 4, 2008 <<

Joint Investigation of Dogfighting Activities Results in Professional Athlete Being Sentenced
and Ordered to Pay $928,073 in Restitution

A joint investigation into dogfighting activities conducted by agents from OIG, Virginia State
Police, and Surry County Sheriff’s Office resulted in a professional athlete being sentenced in
Federal court in Virginia to 23 months of imprisonment, 36 months of supervised release, and
ordered to pay $928,073 in restitution to fund the cost of caring for 47 pit bulls seized by the U.S.
Government. The joint investigation disclosed that the professional athlete and three others were
actively involved in dogfighting activities. Structures designed to breed, house, and fight dogs were
found on the professional athlete’s property. The three co-conspirators were sentenced, respectively,
to 2 months in prison, 18 months in prison, and 21 months in prison. All 3 received 36 months of
supervised release.

Gambling and Animal Cruelty Violations Result from Investigation into Cockfighting in
Arkansas; 19 Vehicles and $63,000 Cash Were Seized

Due to suspected violations of State and Federal laws regarding animal welfare and gambling,
Arkansas law enforcement officials and Federal personnel requested OIG’s assistance on a large-
scale cockfighting investigation in Western Arkansas. In May 2007, approximately 150 State and
Federal law enforcement officers executed a search warrant at a cockfighting arena in Western
Arkansas. Agents searched over 100 trailers on the arena property and found gaffs, knives, scales,
drugs, and other evidence. The warrant resulted in 81 felony arrests for gambling and animal cruelty
and seizure of 19 vehicles and $63,000 in cash. Crawford County District Court sentenced each of
19 spectators to 30 days in jail, $1,800 in fines, and court costs. OIG conducted the investigation
jointly with Immigration and Customs Enforcement (ICE), IRS, FBI, Arkansas State Police, and the
Crawford County Sheriff’s Office.

California Grocery Store Employee Sentenced and Ordered to Pay $2.7 Million in Restitution
for Food Stamp Trafficking and Wire Fraud

An OIG investigation revealed that a California retail grocery store owner and an employee had
trafficked in Electronic Benefit Transfer (EBT) from February 2004 – November 2006. In
November 2007, OIG executed search warrants resulting in seizure of over $100,000 in cash,
multiple bank accounts, and a 2006 luxury vehicle. Both the store owner and the employee were
charged with multiple violations, including food stamp trafficking and wire fraud. The store owner
fled while on bond and currently is a fugitive. In November 2007, the grocery store employee was
sentenced to 57 months in prison and ordered to pay $2,700,000 in restitution by a Federal Court in
California.
Corporate Officer in North Carolina Sentenced, Fined $50,000, and Ordered to Pay $26,988
in Restitution for Food Stamp Fraud

A corporate officer was sentenced in December 2007 by a Federal court in North Carolina to 27
months in prison, ordered to pay a $50,000 fine, and $26,988 in restitution for fraud and failure to
appear for sentencing. The corporation contracted with the Food and Nutrition Service (FNS) to
distribute food stamps to States and contracted with various counties in numerous States to
distribute (USDA) food stamps to retail recipients. The OIG investigation disclosed that several
thousand false documents were presented to FNS to cover up the theft of between $450,000 and
$1,700,000 in food stamps. The corporation had destroyed documentation for the distribution
making an accurate audit trail impossible. Each of the four corporate officers was charged and pled
guilty to various charges. The corporation’s Chief Executive Officer was convicted in November
2002 but fled before sentencing. After fleeing, he assumed a new identity and was ultimately
arrested by U.S. Marshals in Savannah, Georgia, in 2005. He was subsequently charged with failure
to appear for sentencing.

Five Members of Organized Crime Organizations Sentenced in Georgia for Conspiracy
Involving Approximately $6,480,000 of Stolen Infant Formula

A Federal court in Georgia sentenced five members from two organized crime organizations to
sentences in Federal prison ranging from 27 – 60 months for conspiracy, 42 – 65 months for
interstate transportation of stolen property, and 36 months of supervised release. OIG conducted the
investigation jointly with the Food and Drug Administration (FDA) and the Atlanta Police
Department. The investigation disclosed that infant formula was being shoplifted in the Atlanta
metro area and then transported in rental trucks to New York.

Minnesota Convenience Store Owner Sentenced and Ordered to Pay $757,320 in Restitution
as a Result of Joint Investigation of Food Stamp Trafficking Conspiracy

OIG conducted a joint investigation of a food stamp trafficking conspiracy with IRS, FBI, and the
St. Paul, Minnesota, Police Department. The investigation disclosed that a small convenience store
had trafficked approximately $100,000 in food stamps. Four individuals were charged with
conspiring to traffic food stamps and all four pled guilty. In January 2008, a Federal court in
Minnesota sentenced the owner of the convenience store to 36 months in prison, 36 months of
supervised release, and ordered him to pay $757,320 in restitution. Two other defendants have not
yet been sentenced but will also be responsible for the restitution.

New York Grocery Store Owner Sentenced and Ordered to Pay $381,000 in Restitution for
Money Laundering and Food Stamp Conspiracy

In December 2007, a Federal court in the Western District of New York sentenced a retail grocery
store owner to 39 months in prison, 3 months of probation, and ordered him to pay $381,000 in
restitution to USDA for money laundering and food stamp trafficking conspiracy. The OIG
investigation, conducted jointly with the IRS, revealed that a husband and wife, both owners of the
store in question, purchased stolen property, purchased food stamp benefits for cash, and redeemed
over $600,000 in illegal food stamp benefits during July 2006 – February 2007. The wife has left
the country and the husband will be deported after serving his sentence.
